<html>
<title> - OVERSIGHT OF THE SMITHSONIAN INSTITUTION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                OVERSIGHT OF THE SMITHSONIAN INSTITUTION
=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 5, 2003

                               __________

      Printed for the Use of the Committee on House Administration










                       U. S. GOVERNMENT PRINTING OFFICE
87-389                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           JOHN B. LARSON, Connecticut,
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 JUANITA MILLENDER-McDONALD, 
JOHN T. DOOLITTLE, California            California
THOMAS M. REYNOLDS, New York         ROBERT A. BRADY, Pennsylvania

                           Professional Staff

                     Paul Vinovich, Staff Director
                 George Shevin, Minority Staff Director


                OVERSIGHT OF THE SMITHSONIAN INSTITUTION

                              ----------                              


                        WEDNESDAY, MARCH 5, 2003

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:20 p.m., in room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Ehlers, Mica, Linder, Larson, 
Millender-McDonald, and Brady
    Staff Present: Paul Vinovich, Staff Director; Jeff Janas, 
Professional Staff Member; George Hadijski, Professional Staff 
Member; Pat Leahy, Professional Staff Member; George Shevlin, 
Minority Staff Director; Matt Pinkus, Minority Professional 
Staff Member; Charles Howell, Minority Chief Counsel; Deborah 
Mack, Staff Member, Representative Millender-McDonald; and Stan 
White, Staff Member, Representative Brady.
    The Chairman. The committee will begin. I am sorry the 
committee was delayed due to the series of votes called on the 
floor of the House. We will come to order.
    I want to thank all of you for coming today. This 
afternoon's hearing will focus on the Smithsonian Institution 
and its operations. I also want to thank our witness, Secretary 
Larry Small, for taking the time to appear before us today.
    I look forward to hearing your testimony as I know the 
other committee members do.
    In 1829, English scientist James Smithson donated his 
fortune to the people of the United States. I learned this from 
the Secretary, too, some of this history. He did this for the 
purpose of creating an institution for the increase and 
diffusion of knowledge.
    On August 10, 1846, by an act of Congress signed by 
President James K. Polk, the Smithsonian Institution was 
officially established as a trust to be administered by the 
Board of Regents and the Secretary of the Smithsonian.
    Today, the Smithsonian has grown into one of our nation's 
true historical and scientific gems. It is commonly referred to 
as our ``Nation's attic,'' but that phrase oversimplifies a 
very complex institution.
    The Smithsonian contains over 142 million items and 
artifacts and has a Federal budget request for fiscal year 2004 
of over $566 million.
    The Smithsonian Institution is the world's largest museum 
complex and includes 16 museums with two more nearing 
completion in the next couple of years. It also includes four 
research centers, the National Zoo and various education and 
traveling exhibit services, and they are all operated by 
approximately 6,300 employees.
    This enormous structure does not come without enormous 
challenges. The Smithsonian is faced with numerous issues 
pulling it in all directions, which is why managing such a 
structure also becomes one that becomes difficult at times. I 
am also sympathetic to the challenges ahead, as I have dealt 
with similar issues involving the Congress in the past. In the 
wake of the September 11th attacks, we have both had to deal 
with new measures involving security, while facing an overall 
tightening of Federal budget dollars for other areas.
    Having said that, the American public expects nothing less 
than the best from their government and their treasured 
institutions, regardless of the challenges ahead.
    Since the Smithsonian covers such a wide array of subjects, 
I hope today to focus on some specific areas that would include 
updates to our committee on major projects under way or in 
development at the Smithsonian; a discussion about the report 
recently submitted by the Smithsonian Science Commission that 
was tasked with looking at science and science priorities at 
the Institution; management at the National Zoo, the publicized 
animal deaths, of course, and corrective actions taken; and the 
overall management and future priorities of the Smithsonian.
    As a significant portion of its funding comes from 
government sources, the Smithsonian has worked hard to increase 
private contributions. We credit them for that. I would like 
the Secretary to explain the private donation process and how 
the Institution maintains content control when accepting these 
private donations.
    I am also very interested to hear the Secretary's vision 
for managing the Institution's personnel and keeping personnel 
costs from taking away funding from other priorities.
    I understand the Smithsonian is undertaking implementation 
of an institutional strategic plan. I am interested in your 
goal-setting and in the vision for the Smithsonian that is 
found within that plan.
    Lastly, I know the repair and restoration of the 
Institution's infrastructure related to museum buildings has 
been priority for Secretary Small. I would like to know how 
that broad goal is progressing and what the vision and 
priorities are from that point forward.
    I also wanted to make a statement, obviously due to the 
recent situation with the zoo and the publicity we have talked 
to.
    I am pleased to have the ranking member and the other 
members of the committee, both sides of the aisle; we have an 
interest, overall, in the Smithsonian. We have had discussions 
and have also talked to Delegate Eleanor Holmes Norton and have 
come to the conclusion that we would look towards the National 
Academy of Sciences, or if that doesn't seem to be the entity, 
another entity to look over the zoo situation; and the 
Smithsonian may want to comment on that.
    I think this will be an appropriate--process where Congress 
will use its oversight ability to address the controversy and 
the situation at the zoo.
    With that, I will yield to my ranking member, Mr. Larson.
    Mr. Larson. Thank you, Mr. Chairman.
    And thank you, Secretary Small, for joining us here this 
afternoon as well.
    I am delighted at my inaugural meeting here before the 
committee that so many of the press have turned out to focus on 
my initial hearing. And while my mother may believe that, I 
want to thank Mr. Ney, especially, from day one, who has done 
an outstanding job in bringing me up to speed with respect to 
the duties of the committee and working very closely with us in 
bipartisan fashion as we move forward on clearly what is 
institutionally an important aspect of congressional oversight, 
and that is the Smithsonian Institution.
    I also want to applaud Secretary Small. I had an 
opportunity about a week ago to meet at length with him, and I 
would like, for the record, to submit extended remarks that I 
have and in those are many of the questions that were outlined 
by the chairman. And so, not to be redundant, I will submit 
those in written form.
    [The information follows:]

                                                 February 26, 2003.
Denny Lewis,
Manager, Accreditation Programs, American Zoo and Aquarium Association, 
        Silver Spring, MD.
    Dear Mr. Lewis: I am writing on behalf of People for the Ethical 
Treatment of Animals' (PETA) more than 750,000 members and supporters 
to inform you of unacceptable conditions at the National Zoo in 
Washington, D.C., and to request that the AZA Accreditation Commission 
consider these comments during its March 2003 meeting.
    In recent months, PETA has received an inordinate number of 
complaints regarding the tragic deaths of animals at the National Zoo. 
These deaths, in addition to a pattern of poor judgment by zoo 
management, lack of federal oversight and public accountability, and 
substandard conditions, have led PETA to recommend that the National 
Zoo's application for AZA re-accreditation be denied at this time.
    A major problem with this facility is that it is not licensed by 
the U.S. Department of Agriculture (USDA) and therefore is not 
inspected on a regular basis. The zoo voluntarily agrees to only 
occasional courtesy inspections by the agency, once every two or three 
years, to determine its compliance with the minimum standards of the 
federal Animal Welfare Act (AWA). These inspections are apparently for 
the purpose of AZA accreditation. We suggest that, given this special 
circumstance and the zoo's poor track record, the AZA require the zoo 
to submit to more frequent unannounced inspections either by the USDA, 
a coalition of inspectors consisting of poor professionals, sanctuary 
operators, and human officers, or both. Accreditation could be 
reconsidered after a series of inspections reveals that the zoo not 
only meets, but also exceeds, the meager AWA standards of care.
    The recent spate of preventable and questionable deaths included 
the following:
    January 27, 2003: A 9-year-old pygmy hippopotamus died suddenly. 
Pygmy hippos have a life span of 40 years or more in captivity. Zoo 
officials have been vague about this animal's death, saying only that 
``some sort of pathogen or disease agent'' brought on pulmonary 
congestion and edema. Notably, pulmonary edema is a symptom of severe 
aluminum phosphide poisoning (see the entry for January 11, 2003, 
below).
    January 11, 2003: Two red pandas, aged 7\1/2\ and 5\1/2\, were 
found dead and three employees who entered their enclosure fell ill 
with headaches, nausea, and diarrhea less than 24 hours after pellets 
of highly toxic aluminum phosphide were buried in their exhibit to 
control a chronic rat problem. A suggestion, raised during an internal 
November 2002 meeting, to use the pesticide inside the giant panda yard 
was immediately rejected, yet, incredibly, staff wrongly believed that 
the poison was safe for the red pandas. Needless to say, these pandas 
suffered agonizing deaths. Rats, the intended victims, would equally 
have suffered, and PETA encourages zoos to seek human control of 
unwanted visitors. The problem of roden overpopulation is largely 
preventable by maintaining clean, sanitary conditions and plugging 
holes or cracks where mice or rats might enter a building. If traps are 
needed to remove mice or rats, humane box-type traps are available from 
humane societies and hardware stores.
    November 2002: According to the January 2003 Washingtonian, zoo 
director Lucy Spelman approved an euthanasia order on a 24-year-old 
bobcat, believing that the animal was lame with arthritis. After the 
bobcat was killed, it was discovered that an ingrown claw, not 
arthritis, had caused the bobcat to limp. While this bobcat was old, he 
could potentially have lived for a few more years.
    October 11, 2002: Tana, a healthy 14-year-old lion, died after a 
routine checkup. According to news reports, zoo insiders report that 
Tana's death was caused by an incorrectly administered does of 
anesthetic. Tana, still glassy-eyed and groggy from the anesthetic, was 
left unattended overnight and was discovered dead the next morning near 
a pool of frothy, bloody fluid.
    September and February 2002: Griff, an 18-year-old giraffe, and 
Ryma, a 17-year-old giraffe, died suddenly, far short of their 28-year 
life expectancy. Spelman refused to disclose autopsy records concerning 
Ryma's death to a Washington Post reporter, making the ridiculous claim 
that doing so would violate the dead giraffe's right to privacy. 
Operating under a cloak of secrecy only fuels speculation that improper 
care has played a role in these deaths. The zoo has acquired yet 
another giraffe without fully understanding the digestive problems that 
reported caused Griff and Ryma to die.
    August 22, 2000: Nancy, a 46-year-old African elephant, was 
euthanized. Nancy suffered a bone infection in one of her toes, a 
common killer of captive elephants caused by lack of exercise, long 
hours standing on hard substrates, and contamination resulting from 
standing in their own feces and urine. An autopsy also revealed bovine 
tuberculosis in her lungs. Since the zoo is not USDA-licensed, it is 
not known whether the zoo complies with tuberculosis testing 
requirements for elephants and handlers.
    February 1, 2000, and January 22, 2000: A 1-year-old zebra and an 
8-year-old zebra died at zoo facilities. Fed a deficient diet, the 
zebras were malnourished and succumbed to the cold.
    In addition to these deaths, courtesy inspections conducted by the 
USDA in October and December 2002 found multiple instances of 
noncompliance with the minimum standards of the Animal Welfare Act, 
including inadequate maintenance, unsanitary conditions, and facilities 
that were teeming with rodents, cockroaches, and ants.
    On June 12, 2002, PETA wrote to Spelman complaining of poor 
conditions in the small-mammal building, where animals are kept in 
undersized, barren Plexiglas cages without access to the outdoors. With 
no opportunity to escape from public views, a fennec fox and a leopard 
cat were frightened by children banging on the windows of their cases. 
Animals are much more content when they are given access to the 
outdoors so that they can enjoy walking on soft grass, taking in the 
surrounding scents, resting in the sun, and breathing fresh air.
    The National Zoo uses an outdated, circus-style form of elephant 
management that consists of dominance and punishing elephants with 
sharp metal bullhooks. Most zoos today have converted to the safer and 
more humane protected-contact method that utilizes positive 
reinforcement instead of corporal punishment. We expect the National 
Zoo to set a positive example and implement state-of-the art handling 
practices.
    People from all over the world go to the National Zoo while 
visiting our nation's capital. The condition of this facility not only 
affects the animals who are kept there, but also sets an example to 
tourists of how zoos in America treat animals. Substandard exhibits 
that deprive animals of their most basic needs, unsanitary conditions, 
mishandling, preventable animal deaths, and mismanagement reflect 
poorly on both the National Zoo and the AZA. The AZA should withhold 
re-accreditation until the zoo makes significant verifiable upgrades to 
its level of animal care.
    Thank you for giving this matter your consideration. May I please 
be informed of the commission's decision concerning the National Zoo's 
accreditation? I can be reached by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="591d3c3b3b303c1519293c2d3877362b3e">[email&#160;protected]</a>, by 
telephone at 630-393-9627, or by fax at 630-393-2941.
            Sincerely,
                                              Debbie Leahy,
                        Director, Captive Exotic Animal Department.

    Mr. Larson. But specifically, I view part of the role and 
responsibility of this committee as making sure that Members of 
Congress understand the interrelated focus and oversight that 
we share with our institutions, like the Library of Congress 
and the Smithsonian Institution.
    I was very impressed with the way that Secretary Small has 
laid out the Institution and its performance and its mission, 
and I am anxious to hear from you this morning as well.
    I further want to compliment the chairman. Obviously, there 
is concern that has been raised in the media with regard to the 
National Zoo and the problematic concern that has arisen over 
the deaths of animals, most by natural causes, but some which 
press reports and accounts have indicated perhaps were because 
of lack of bureaucratic oversight or human error.
    I fully concur that a study, an independent study by the 
National Academy of Sciences is the way to go; and we share 
that vision and purpose with the chairman. and we anxiously 
await today the remarks of Dr. Spelman, as well, who I am sure 
will explain to us some of the concerns that we have and 
perhaps put at ease a number of the concerns that people in the 
media have.
    But I am especially heartened by the chairman's instinctive 
desire to make sure that we go forward with a full, independent 
study and look into what happened at our National Zoo.
    Having said that, I will yield back and look forward to 
hearing from Secretary Small.
    The Chairman. I want to thank the ranking member of this 
statement.
    Mr. Linder.
    Mr. Linder. No, thank you, Mr. Chairman. I am here to 
listen.
    The Chairman. Ms. Millender-McDonald from California.
    Ms. Millender-McDonald. Thank you, Mr. Chairman and Mr. 
Ranking Member.
    I am very much interested in this hearing today, given some 
of the startling information that has come to my attention. I 
am interested in regards to the management, the oversight, or 
perhaps the lack thereof, in terms of the zoo.
    We recognize this very historic institution, and we want to 
keep it as historic and as efficient as we have come to know 
about it. And so I am interested in hearing from you, Secretary 
Small.
    Also, I would like for the record to reflect, Mr. Chairman 
and Mr. Ranking Member, that we need to look at the exempt 
clause in the animal welfare laws to discern whether on not 
there can be amendments to those laws or amendments to the 
congressional charter that tends to be the guiding force behind 
the Smithsonian Institution. Because I think, with that there 
might be some telling stories, or might be some knowledge that 
we can glean from that, as we ask for the oversight study.
    I would like to think that I will not presume anything 
until I further hear from the Secretary, and also this 
independent study that you have asked for, Mr. Chairman, that 
is very much needed. Because what we are seeing or what we are 
hearing really is very startling and very concerning to me. And 
I would like to ask, after we do that study, will there be than 
a special hearing, given this study, to discern just what we 
have gleaned from that and which direction we go? We must give 
them some serious through.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Brady.
    Mr. Brady. I will yield.
    The Chairman. Mr. Secretary, we will begin your testimony.

    STATEMENT OF LAWRENCE M. SMALL, SECRETARY, SMITHSONIAN 
  INSTITUTION, ACCOMPANIED BY DR. LUCY H. SPELMAN, DIRECTOR, 
    NATIONAL ZOOLOGICAL PARK; AND DR. DAVID L. EVANS, UNDER 
         SECRETARY FOR SCIENCE, SMITHSONIAN INSTITUTION

    Mr. Small. Thank you very much, Mr. Chairman, members of 
the committee. Thank you for this opportunity to discuss the 
status of the Smithsonian Institution.
    As you all know the Smithsonian is dependent for about two-
thirds of its funding on its Federal appropriation. We simply 
couldn't do what we do without the support of the 
administration, without the support of Congress. And we are 
ever mindful of that support.
    Over the last 156 years, the Smithsonian has remained true 
to its mission, the increase and diffusion of knowledge; and it 
has become not only the world's largest provider of 
authoritative museum experiences that are supported by 
scholarship and science and history and the arts, but as the 
chairman pointed out, it is also an international leader in 
scientific research and exploration.
    We have 16 museums and galleries, several research centers, 
the National Zoo; and with all that, the Smithsonian offers the 
world a picture of America and it offers America a picture of 
the world.
    What we want to do is enhance picture. We want to reach out 
to all Americans, wherever they may live, with the best that 
the Smithsonian has to offer and to do so in a way that 
indicates that we are communicating with the public and 
carrying out our mission in the highest-quality manner 
possible.
    We face a number of challenges to do that. Half of the 
Smithsonian's 400 buildings are in trouble. The independent 
study that was commissioned by Congress and performed by the 
National Academy of Public Administration said that the 
Smithsonian will need $1.5 billion over the course of this 
decade to deal with our huge renovation and repair backlog. And 
both that study and the Office of Management and Budget's 
recent report card said that our outdated, malfunctioning 
information and financial management systems also have to be 
replaced. In addition to that, about half of the hundreds of 
exhibitions in the Smithsonian's museums are now 15 to 25 years 
old and some are even 40 and 50 years old.
    You know, many Americans come to the Smithsonian maybe 
three times in their lives--as a child, as a parent and as a 
grandparent. We actually have today grandparents who are coming 
to the Smithsonian and, in some cases, seeing exhibits that 
they saw when they came as children. And frankly that is not 
good.
    The Star Spangled Banner, the wonderful tiny lap-desk that 
Thomas Jefferson personally designed and on which he wrote the 
Declaration of Independence, the hat that President Abraham 
Lincoln had on the night he was assassinated, all of those have 
to be presented in a way other objects like them, ironic 
objects of our culture, have to be presented, in a way that 
connects with the public, that can attract children to learn 
about these things. And that way has to include modern display 
techniques; and it can't be labels under the object that use 
the type fonts that you would find in Life magazine back in 
1952.
    Additionally, we have endured a steady decrease in Federal 
staff in key areas over the last 10 years. In the Smithsonian's 
busiest, most-visited locations, which include the three most-
visited museums in the world--the Air and Space Museum, the 
Natural History Museum and the American History Museum--we have 
fewer people on the Federal payroll than we had a decade ago, 
even though our museums are far busier.
    The people we have on the payroll of the Smithsonian are 
graying. We now have more than 1,100 employees over the age of 
55; that is more than 25 percent of our work force. And almost 
90 percent of the Smithsonian's Federal scientists, curators, 
biologists, astrophysicists and social science researchers are 
now over 40 years old, meaning that close to 10 percent of the 
people in the sciences and research--of that number fewer than 
10 percent, around 10 percent, are under 40 and that is it. 
That means that the best and the brightest of the generation 
that is 55 years and older, the generation that has built the 
Smithsonian during this last century, won't be able to pass on 
the collective knowledge that they have built, the wisdom that 
they have built to the next generation of scientists and 
scholars, because at the rate we are going there won't be any 
next generation.
    That would be tragic because scientific research is a much 
bigger part of the Smithsonian than most people realize. In 
fact, one of our units, the Smithsonian Astrophysical 
Observatory in Cambridge, Massachusetts, is one of the 
preeminent centers for the study of the origins and future of 
the universe and actually has a bigger budget than any of the 
museums in the Smithsonian.
    The Smithsonian Tropical Research Institute in Panama is 
arguably one of the most highly regarded complexes of 
facilities for the study of tropical biology, which is so 
important because so many species live in rainforests on the 
earth.
    The Smithsonian Environmental Research Center in Edgewater, 
Maryland, is nationally known for its contribution to 
ecological issues, especially in the very important work in 
invasive species.
    Finally, the collections at the National Museum of Natural 
History are second to none, and they include the greatest and 
most diverse collection of DNA specimens in the world.
    As the chairman pointed out, the tragedy of 9/11 led to a 
sharp drop in visitors with a resulting loss in revenues in our 
gift shops and restaurants, movie theaters and other 
businesses; and those revenues are vitally needed to supplement 
Federal funding. Overall, our attendance, which is the largest 
museum attendance in the world, in fiscal year 2002 dropped by 
22 percent compared to fiscal year 2001; that is 8.5 million 
visits that were lost. And lots of those visits that were lost 
were children who missed the childhood phase of that pattern of 
child, parent and grandparent visit that so many Americans have 
experienced.
    But we are dealing with these challenges. We are making 
progress on many fronts.
    If I may, Mr. Chairman, let me say that the more than 6,300 
Smithsonian employees, whether they are curators or researchers 
or custodians, have all responded in a really very dedicated 
way. And while in some ways 9/11 has brought the worst of times 
to the museum world, we are in the best of times because we 
have great momentum with ambitious initiatives under way to 
attract expanded audiences to our new and revitalized museums, 
exhibitions and public programming.
    You mentioned the new National Air and Space Museum, one of 
our projects, the Steven F. Udvar-Hazy Center near Dulles 
Airport. That will open on December 15, 2003. It is going to be 
one of the most spectacular museums in the world. The new 
National Museum of the American Indian is rising on the Mall in 
front of the Capitol. That will open in the fall of 2004. The 
Patent Office Building, which is home of the National Portrait 
Gallery and the Smithsonian American Art Museum is being 
renovated; that will open in 2006.
    With respect to one of the other great parts of the 
Smithsonian, the National Zoo, truly a beloved institution here 
in the Capital, which gets over 2 million visitors a year, we 
are also involved in a terrific revitalization plan dealing 
with the dilapidated facilities and exhibits of one of the 
Smithsonian's oldest activities. The zoo dates back to 1889.
    It is all very exciting, but at the same time we are more 
than aware of the questions that have been raised concerning 
the care of animals at the zoo; and to that end, we are most 
delighted to be able to work out with you, to talk with you 
about just what you have mentioned: work out a process to 
empanel a completely independent group of external experts to 
review the situation and to make recommendations regarding 
possible steps to take in this very vital area of the zoo's 
operations.
    In addition, Mr. Chairman, I would like to state that the 
Smithsonian welcomes public scrutiny of our activities at the 
zoo, and we would support modification of our special status 
under the Animal Welfare Act in order to make ourselves subject 
to the same rules and procedures as all other zoos. We 
currently consult with the U.S. Department of Agriculture for 
routine inspections under the Animal Welfare Act and we would 
be most willing to go a step further and make that relationship 
mandatory rather than voluntary.
    Now, for those who can't come to the Nation's Capital, the 
Smithsonian is determined to go to them. At any time we have 
not more than 1 or 2 percent of the 142 million or so objects 
in our collections on display. So in the last few years we have 
tripled our program to lend, free of charge, some of those 
objects to local museums all around the country. We now have 
126 affiliated museums around the country.
    We also have the largest traveling museum exhibition 
service in the world. Five million people see its exhibitions 
around America every year. We, as you know, being in 
Washington, have an extensive series of courses and study tours 
and regional events; 350,000 people go to those every year. We 
have education programs which serve more than 1 million 
educators and millions of students. And we just most recently, 
in the last year or so, have gotten to the point where there 
are more visitors who come to the Smithsonian over the Internet 
than actually come physically to the Mall.
    So we are really in contact with the American public. We 
are in contact with them all across the country. We tell the 
story of what it means to be an American. We tell the story of 
the challenges, of the struggles, of the failures, the triumphs 
that have led this society to become what it is today. And we 
provide an opportunity for each new generation to discover and 
rediscover what it means to be an American. That is why the 
Smithsonian deserves America's attention and America's support.
    Thank you, Mr. Chairman.
    [The statement of Mr. Small follows:]

   TESTIMONY OF LAWRENCE M. SMALL, SECRETARY, SMITHSONIAN INSTITUTION

    I am pleased to have this opportunity to address the Committee on 
the mission and status of the Smithsonian Institution and, on behalf of 
the Institution, its Board of Regents, and staff, to extend our 
gratitude for the interest, support and counsel of the Committee.
            the smithsonian institution in the 21st century
    As the guardian of our nation's greatest historic, artistic, and 
scientific treasures, the Smithsonian Institution has, for more than 
156 years, worked hard to fulfill its mission, ``the increase and 
diffusion of knowledge.'' However, while the Institution has maintained 
a superb reputation for first-class authoritative work, several 
competing priorities for funding and fallout from the after effects of 
September 11th have combined to create a financial situation at the 
Smithsonian that may require drastic actions, including substantial 
personnel reductions. Nonetheless, we are more determined than ever to 
meet these challenges and transform the Smithsonian into a modern 21st-
century institution.
    As the largest museum and research complex in the world, the 
Smithsonian's reputation rests on a strong foundation. Unfortunately, 
it is also an institution contending with a severely deteriorated 
physical infrastructure, outdated technology, many aged, and outmoded 
exhibitions, and staffing levels that can barely meet the current 
workload based on how we must operate today. The July 2001 report from 
the National Academy of Public Administration documented that a total 
of $1.5 billion would be required over the next ten years to bring the 
Institution's facilities up to an acceptable level. The tragedy of 
September 11th has led to a drop in visitors with a resulting loss in 
revenues from museum stores, restaurants and theaters needed to 
supplement federal funding. In addition to our existing museums, the 
Institution is well down the road of opening and staffing two major 
museums approved by Congress, the National Air and Space Museum's 
Udvar-Hazy Center (to open in December, 2003) and the National Museum 
of the American Indian (NMAI) on the Mall to open in September, 2004). 
Both the planning and construction of the Udvar-Hazy Center and the 
establishment and construction of NMAI were authorized by the Committee 
on House Administration.
    In the first decade of the 21st century, we are working to 
revitalize the physical plant, modernize the Institution's 
infrastructure, open the new museums, expand and energize research, 
bring visitors back to the capital, and thereby expand the impact of a 
great and trusted institution.
                           smithsonian goals
    Because our staff responded to these many and various challenges 
with resourcefulness, dedication and plain hard work, the Smithsonian 
had a successful year under very trying circumstances. But much more 
needs to be done to revitalize the Institution. To that end, we're 
pursuing four major goals: (1) increased public engagement, (2) 
strengthened scientific research, (3) enhanced management excellence, 
and (4) greater financial strength.
                      increased public engagement
    In fiscal year 2002, 33 million visitors enjoyed our many museums, 
research centers, the National Zoo, and traveling exhibitions. Many of 
them visited our new exhibitions, including 411,391 visitors to 
September 11, 2001: Bearing Witness to History in the six months since 
it opened. Our annual Folklife Festival, which featured the cultures of 
the Silk Road, drew a record 1.3 million visitors to the Mall last 
summer. More than 62 million people visited our web site. And of 
course, our giant pandas continue to delight and fascinate National 
Zoo-goers, with more than 5 million visitors since their arrival in 
December 2000.
    Our ability to reach Americans across the country continues to 
expand. We now have 125 affiliates in 36 states, plus the District of 
Columbia, Puerto Rico and Panama. The Smithsonian Institution Traveling 
Exhibition Service (SITES) now has 56 exhibits visiting 220 
communities. A component of SITES, Museum on Main Street (MoMS), serves 
a particularly important purpose in offering four of those exhibits to 
84 rural and smaller towns. In addition, 250,000 people took advantage 
of The Smithsonian Associate's wide range of lectures, seminars, 
courses, study tours, performances and regional events last year.
    In April, the Smithsonian Center for Education and Museum Studies 
will launch SmithsonianEducation.org, a new education website tailored 
for three distinct audiences: educators, students, and families. The 
site will feature a searchable database of the Institution's 
educational programs, productions, publications, and events. It will 
also offer interactive learning labs, field trip guides, lesson plans 
for teachers, online product ordering, and workshop registration. The 
Smithsonian Center for Education and Museum Studies also sent out its 
first national issue of Smithsonian in Your Classroom, a teaching guide 
based on Smithsonian primary sources. More than 80,000 public, private, 
and Department of Defense schools will receive this biannual 
publication.
                    strengthened scientific research
    The Institution is determined to revitalize science at the 
Smithsonian as suggested by ``The Report of the Smithsonian Institution 
Science Commission,'' released in January 2003. The Smithsonian Science 
Commission, created by the Board of Regents, delivered its report, 
following a 15-month study in which the Commission looked at all 
science activities at the Institution. The report, which has been 
endorsed by the Regents, concluded that Smithsonian science is first-
rate and deserving of continued federal support. However, it states 
that Smithsonian science is facing the most critical time in its 156 
year history and delivered specific, focused recommendations which 
challenge us to renew dedication to our science enterprise by improving 
funding, leadership, and communications. Specifically noted was the 
serious erosion of science staffing over time because of a long-term 
trend of budgetary shortfalls. The newly appointed Under Secretary for 
Science is leading efforts to develop a detailed implementation plan to 
address the Commission recommendations. The Commission's highest 
priority was to improve the funding of Smithsonian science, including a 
boost to the Fellowships and Scholarly Studies Programs--a national 
competition for pre-doctoral and post-doctoral fellowships for the 
infusion of new energetic talent--and an internal program for providing 
incentives and support for the best and brightest Smithsonian 
researchers. This priority is reflected in our fiscal year 2004 budget 
request.
    The Smithsonian has been involved in scientific research since its 
inception--research efforts that span astronomy, astrophysics, 
biological diversity, the global environment, human ecology, and space 
science. Staff, fellows, and visiting scientists conduct research at 
the Smithsonian Tropical Research Institute in the Republic of Panama; 
the Smithsonian Environmental Research Center in Edgewater, Maryland; 
the National Museum of Natural History in Washington, D.C. and its 
research stations in Ft. Pierce, Florida and Carrie Bow Cay, Belize; 
the National Zoological Park in Washington, D.C. and Front Royal, 
Virginia; and the Smithsonian Astrophysical Observatory in Cambridge, 
Massachusetts, Mt. Hopkins at Amada, Arizona, Mauna Kea at Hilo, 
Hawaii, and Las Campanas, Chile.
    Smithsonian scientists continue to maintain their prominence world 
wide and capitalize on the institution's greatest strength: our ability 
to undertake long-term, systematic, big-picture science. For example, 
over the past year, we have made significant contributions to better 
understanding the transmission of West Nile Virus between mosquitoes 
and birds and the impact on human health; defending the United States 
against invasive species by monitoring ballast water exchange; and 
discovering that planets exist around nearby stars. The work of an 
astrophysicist at the Smithsonian Astrophysical Observatory earned a 
Nobel Prize in 2002.
                     enhanced management excellence
    An important component of improving the management of the 
Smithsonian is to recruit the best candidates to senior level 
positions. In the past year, we have succeeded in attracting highly 
qualified individuals to serve as the Under Secretary for Science, 
Director of the National Museum of American History, Director of the 
National Museum of Natural History, Director of the Hirshhorn Museum 
and Sculpture Garden, Director of the National Museum of African Art, 
Director of the Freer and Sackler Galleries of Art, Director of the 
National Postal Museum, Director of the Smithsonian Institution Press, 
Director of External Affairs, and Director of Communications and Public 
Affairs.
    In 2002 we continued work on the implementation of a new 
information technology-based financial management system that we 
started in 2001. In 2002 we completed the development and configuration 
of the PeopleSoft General Ledger Accounts Payable and Purchasing 
modules as well as components of three additional modules, and 
implemented the first phase of our new financial system on schedule on 
October 1st. As part of this implementation we converted a large amount 
of data from the previous system and trained more than 800 employees on 
the new system.
                       greater financial strength
    The Institution's private-sector fund-raising efforts generated 
$164.6 million in private support in fiscal year 2002. This was a 
remarkable 93% of 2001's figure of $177 million, accomplished in what 
museums and cultural institutions nationwide say was one of the 
toughest years ever for fund raising, due to a weak economy and a 
faltering stock market. Over the last three years, the Smithsonian has 
raised over a half a billion dollars from the private sector.
    It is particularly gratifying to see such solid support for the 
Smithsonian at such a challenging time. And the Smithsonian's support 
came at every level. Our Contributing Membership, for example, where 
membership begins at $70, grew to 73,000 members, its largest number 
ever, and giving through estate planning marked a 10% increase over 
2001.
    Included in 2002's total were four gifts of ten million dollars 
each. These were from a Native American tribe in New York, for 
construction of the National Museum of the American Indian on the 
National Mall; from a corporate foundation, for America on the Move, a 
transportation exhibition opening in 2003 at the National Museum of 
American History, Behring Center; and family trusts and an aerospace 
corporation, for construction of the National Air and Space Museum's 
Steven F. Udvar-Hazy Center. A $5.1 million anonymous gift was given 
for construction of the National Museum of the American Indian.
    We do no expect the fund-raising climate to improve this year. 
Indeed, it may well be more difficult. However, we can already report a 
number of significant 2003 gifts to date. These include a $2 million 
gift to the Smithsonian Tropical Research Institute in Panama; $1.5 
million given to the Smithsonian American Art Museum; more than $1.2 
million contributed to the Smithsonian Libraries; and support of over 
$1 million by a corporate donor for the National Air and Space Museum's 
Udvar-Hazy Center. These generous gifts underscore the continued strong 
commitment of individuals, foundations and corporations to the 
Smithsonian, even in a terrifically challenging fund-raising 
environment.
    Smithsonian Business Ventures (SBV), which oversees the operations 
of Smithsonian theaters, magazines, books, recordings, museum shops, 
mail order and concessions, produced a total net gain of $16.6 million 
in fiscal year 2002 on total revenues of $139 million. Although all 
Smithsonian businesses were profitable, net gain declined by $9.7 
million from the prior year, primarily because of dramatically reduced 
museum visitation following September 11, 2001 and the continuing 
recession in the magazine advertising industry, and an initiative to 
outsource Smithsonian's catalogue distribution that is already 
producing dramatic cost savings. Declines in domestic and international 
travel and tourism following September 11, 2001 continued to have a 
serious impact on SBV in 2002: sales at museum stores, theaters and 
restaurants rely on the number of visitors to the museums, and travel 
industry clients are Smithsonian magazine's single largest category of 
advertising revenue. Improvements and new concessions in museum retail 
operations successfully generated incremental revenue and improved our 
visitor's experience. Smithsonian magazine maintained 2 million paid 
subscribers and readership levels of 8 million monthly; however, its 
publishing staff sold only 514 pages of advertising, a 19% decline from 
fiscal year 2001, in the face of the magazine industry's worst 
recession since World War II.
                     smithsonian funding priorities
    Given the Institution's budget realities, Smithsonian funding 
priorities fall into five categories: First, funding to keep 
Institution museums in operation, collections safe, and research 
programs intact--in other words, what we refer to as mandatory costs.
    The Smithsonian's second priority is to provide adequate security 
to the Institution's staff, visitors, collections, and facilities, and 
to protect against terrorist actions.
    The Smithsonian's third priority is to address the Institution's 
critical facilities revitalization and information technology needs 
recommended by the National Academy of Public Administration (NAPA) 
study commissioned by Congress in 2000.
    The Institution's fourth priority is to fulfill the Smithsonian's 
mandate to open and operate two new museums: the National Museum of the 
American Indian on the National Mall, and the National Air and Space 
Museum's new Steven F. Udvar-Hazy Center, adjacent to Dulles Airport in 
Northern Virginia.
                            fiscal year 2004
    While Smithsonian private fund-raising efforts were successful in 
fiscal year 2002 and we are striving to continue that success, the vast 
majority of those funds were given to us for specific purposes. These 
``restricted'' funds are not available for day-to-day operating 
expenses such as repairing and maintaining our facilities; providing a 
safe and secure environment for our visitors, staff and collections; or 
for paying our heating and cooling bills. For these sustaining types of 
expenses, the Smithsonian relies on federal funding.
    The institution's budget request for fiscal year 2004 totals $566.5 
million. Of that, $476.5 million is allocated for Salaries and Expenses 
(S&E), including $13 million in mandatory increases to cover the 
proposed 2% pay increase in 2004 as well as the effect of a 3.1% (later 
changed to 4.1% by Congress) pay raise for 2003. However, the request 
for the S&E account also reflects an unallocated reduction of $12.3 
million. The Institution had a similar unallocated reduction in fiscal 
year 2003. This reduction was largely avoided through very supportive 
action by Congress that increased Smithsonian's fiscal year 2003 
funding to $559.0 million. However, the combination of the carry-
forward of the fiscal year 2003 unallocated reduction, the new $12.3 
million unallocated reduction, and the unbudgeted increase in the pay 
raise means we begin the fiscal year 2004 congressional budget cycle in 
a challenging position. The Institution will address this challenge 
largely by a combination of personnel actions, which could include a 
hiring freeze, reductions in force, and/or furloughs. If the reduction 
is taken solely through personnel actions, it is likely to cut upwards 
of 10% of the Institution's federal workforce. These actions would come 
in the wake of the 17% reduction in staff experienced by the 
Institution over the last ten years.
    Also included in the S&E request is a total of $34.2 million in 
programmatic increases. These include funding and additional positions 
required to meet the increased security needs of the Institution 
following the September 11, 2001 attacks, and to support improvements 
to the Institution's facilities and information technology 
infrastructure, in line with the 2001 report of the National Academy of 
Public Administration. The request also includes the resources needed 
to allow the two new museums, the NMAI Mall Museum and NASM Udvar-Hazy 
Center, to continue their preparations for opening as scheduled 
(December 2003 the 100th anniversary of manned flight for the Udvar-
Hazy Center, and September 2004 for NMAI). Finally, the request 
includes increases for key areas in scientific research and public 
programming, including research fellowships and scholarly studies as 
recommended by the Science Commission; management of the Very Energetic 
Radiation Imaging Telescope Array System (VERITAS) by the Smithsonian 
Astrophysical Observatory; critical support for programs that recognize 
Latino contributions to the United States' heritage and culture; needed 
funds for purchasing electronic journals and databases by the 
Smithsonian Institution Libraries; and additional staff support for 
contracting activities throughout the Institution.
    Also included in the fiscal year 2004 federal budget request is $90 
million for Facilities Capital which will allow for the continuation of 
several major revitalization projects, including the 167-year-old 
Patent Office Building, the 104-year-old National Zoological Park, the 
39-year-old National Museum of American History, Behring Center public 
space revitalization, and the 93-year-old National Museum of Natural 
History. In addition, $10 million is included to start construction of 
the addition to the Museum Support Center at Suitland, Maryland known 
as Pod 5, to house the flammable collections currently stored in 
alcohol underneath the highly trafficked public spaces of the National 
Museum of Natural History. Authorization for the revitalization and 
enhancement of the Patent Office Building and for design, construction 
and equipping of Pod 5 had also been included in the Smithsonian 
omnibus bill of the last Congress. Congressional Members of the 
Institution's governing Board of Regents will introduce an undated 
version of the previous bill shortly and we hope for expeditious 
Congressional consideration and passage of the measure.
                               conclusion
    The Smithsonian plays a vital role in our country's civic and 
cultural life. Using art, artifacts, history, and science, the 
Smithsonian tells a comprehensive story--America's story. The 
Smithsonian offers the world a picture of America, and America a 
picture of the world. Now more than ever, this is an important role to 
maintain. To reach more people with such seminal stories, the 
Smithsonian needs to transform itself into a true 21st-century 
institution. It won't be easy. The Smithsonian Institution faces 
significant challenges if it is to continue to serve the public in an 
exemplary manner with both engaging, modern exhibitions backed by 
authoritative scholarship, and groundbreaking scientific research and 
exploration. We appreciate the Committee's past assistance and guidance 
in addressing the challenges and needs of the Institution and look 
forward to a strong alliance with the Committee in meeting the 
obligations of the Institution to preserve the past, expand the 
boundaries of knowledge, and to offer the highest level of public 
service possible.

    The Chairman. I want to thank the Secretary for his 
testimony.
    I want to ask a few questions here. Then we will turn to 
the other members.
    First, I want to ask about the Dulles Air and Space 
extension. That will house, as I understand it, dozens of 
aircraft and artifacts. We are looking forward to the opening 
of that.
    Could we have a brief update on it, what costs are 
anticipated, what congressional assistance would be needed in 
the future?
    Mr. Small. Sure. As I indicated in my remarks, this is 
going to be a spectacular museum. When you fly into Dulles now, 
sometimes the winds take you on a pattern where you fly over 
it; and it takes a while to get over the whole facility it is 
so big.
    We expect that it will be the--the main chamber, if you 
will, of the New Air and Space Museum will be probably the 
largest room in the world. It is almost three football fields 
long, it is 10 stories high, it is 250 feet wide. It has the 
capacity to holds 88 Goodyear blimps--not that we have 88 
Goodyear blimps in our collection. There will be over 200 
aircraft and well over 100 spacecraft inside, scores of 
engines, propellers, all sorts of equipment that make up the 
fantastic history of aviation.
    As you all know, this will be opening up in December of 
this year, which is the 100th anniversary of the Wright 
Brothers' first flight.
    It is an $311 million project. This first phase of it is 
200 million. There is a very small amount of Federal funding 
that is in it, and the bulk of the rest of it comes from 
private-sector funding and support from the State and 
municipalities in Virginia that are around there to provide 
access to it.
    We expect there will be transportation from the Mall in the 
form of a bus service, and we think it is going to become one 
of the most popular museums in the world.
    Just lastly let me say, right now the Air and Space Museum, 
which is already the most visited museum in the world, is 
displaying only a small fraction of its collection. With this 
new museum, the two museums will be displaying about 80 percent 
of the national aircraft collection. So it is going to be a 
fantastic experience for visitors.
    The Chairman. Thank you.
    During the end of the 107th, the Congress was approached 
about backing legislation to authorize funding for the Patent 
Trade Building; and that also included employee buyouts and 
overall infrastructure needs.
    Do you think the Smithsonian will push the similar 
legislation this upcoming year?
    Mr. Small. Yes. We still need to get approval to carry out 
a certain number of tasks that are important for us. We need 
approval. We have an omnibus bill we are working on with 
Congress so that we will have the ability to carry out 
enhancements to the wonderful Patent Office Building, which is 
downtown in the revitalized center of Washington. That is the 
home of the Smithsonian American Art Museum and the National 
Portrait Gallery.
    It is the third building built by the American people, 
started back in 1836; it is in need of a major restoration.
    We have a $216 million project going on; 166 million of 
that will require Federal funding--Congress and the 
administration are working with us on that--and 50 million will 
be private-sector funds of which we have raised more than half 
already. We will need legislation to help us carry that out. We 
also need legislation in the same package to help with us with 
what are called ``continuous contracting authorizations.''
    We also will be looking for help in terms of recognizing 
the tremendous contribution that jazz has made to the music 
culture of America, part of the major area of study of the 
Smithsonian's National Museum of American History.
    So there are a number of these, what I would call 
``administrative items'' that will help us carry out our 
activities, including further authorization required to add to 
our storage facilities for some critical items that need to be 
moved to our storage area in Maryland.
    We will be working with Congress to secure appropriations 
for the ongoing operating funding for the new Air and Space 
Museum and the National Museum of the American Indian.
    So, yes, there are some activities that we have to work out 
with Congress.
    The Chairman. I would also note to the audience, please--
cell phones and BlackBerries, please put them on vibrate.
    The Smithsonian Institution is a leader in scientific 
research, the Astrophysical Observatory, Tropical Research 
Center, volcano projects, Smithsonian Environmental Research 
Center and others provide important information and are a great 
wealth to the world--just what you do in Panama, for example, 
and what is done in Hawaii for future generations.
    Do you have any plans for highlighting and promoting the 
science to the public, to the media, and to the Congress? We 
are encouraging here, for all Members, to physically go see 
these facilities; they are unbelievable. I wonder if you have 
any plans to highlight that to the public. Sometimes we have 
these great facilities; is there a way we can get more public 
exposure for them?
    Mr. Small. I believe we can do a better job on that. We 
are, in fact, working more closely with Congress to brief 
Members on an ongoing basis as to the breadth and depth of 
scientific activities in the Smithsonian.
    We are also--we have started now the publication of a 
weekly newsletter, which we are sending also to Congress, so 
that people can see the developments as they take place in the 
Smithsonian. We have encouraged the development of even more 
extensive activity on the various Web sites of all of our 
scientific units.
    We have expanded the number of education programs that our 
scientific units are carrying out with school systems 
throughout the United States. We have put in place a number of 
programs to take objects from our taxidermy collections, for 
example, and lend them out to school systems so they can have a 
closer, hands-on feel for what goes on in animal biology.
    And the answer is, yes, we are trying to extend as many 
programs so that people can learn more about what goes on in 
science at the Smithsonian, because as I indicated before, even 
though these operations are very large, very extensive, in many 
cases people just don't know about them because the museums are 
what tend to captivate the public's image of the Smithsonian.
    The Chairman. My final question, and I will make it brief, 
although your answer may be lengthier--I am not sure, but I 
know other Members want to look at overall questions--but it 
would be related directly to the zoo. And let me just, you 
know, say that there has been a lot of items we have read.
    I would like to know how the animal deaths at the National 
Zoo compare to the number of animal deaths that are expected as 
a result of normal life spans in captivity, for example, To 
what extent are these attributed to natural causes versus human 
error?
    There has been a debate about human error. Was it 
contributing to the death of any other animals besides the red 
panda? And I understand some of the deaths occurred as a 
natural life span with some of the animals. There was a 
question, of course, of the zebras.
    And so I wondered--I would suggest Dr. Spelman would come 
forward--but would you want to address the zoo?
    Mr. Small. Sure, Obviously, with all of the focus on it, 
the question that I am concerned about, as are my colleagues: I 
was told before I came to the Smithsonian, as I was doing due 
diligence on that, this would be an area that would come up 
because of the fact that the animal population at the zoo--
there are about 2,800 animals in the zoo's collection--is an 
aging population, and that there has always been a particular 
focus on the larger animals that are better known to the 
public. And just before I came to the Smithsonian 3 years ago, 
the second of the two pandas that had been given to the United 
States had died and there was a great debate of what to do with 
the panda's remains.
    I saw immediately, even before taking on the job, that this 
was a very sensitive topic. So obviously it has been an area of 
concern. People knew the age of the animal collection and that 
it would be an issue, so we are very pleased to be able to 
address it.
    In terms of the issue of the deaths of animals, whether we 
look at the period of the last year or you go back 3, 4, 5 
years, I think you can divide all of the cases into two groups: 
one group which would be a group where there is clear human 
error, which there is no doubt about, which has taken place, 
which has resulted in the death of animals.
    And in the recent past there was a case where there was an 
attempt to deal with a rodent problem at the zoo. The zoo has a 
rodent problem, just as all of us who live in Washington, D.C., 
know that is a rodent problem; but it is greater if you have 
feed out and animals out, and it is in the middle of Rock Creek 
Park.
    We attempted to deal with that, and a judgment was made to 
put a rodent poison, bury it in the ground in an animal 
enclosure. It was not done in consultation with the higher 
authorities in the zoo. It was a bad decision, bad judgment, 
and then poorly implemented. There is no question, based on the 
pathology reports that the two red pandas--not giant pandas, 
but they are smaller animals--ingested the poison and died. 
Absolutely no question about that.
    Action has been taken by the Under Secretary for Science 
and the Zoo Director, in consultation with other colleagues, to 
make organizational changes at the zoo, change procedures, put 
in a much greater series of controls any time there are any 
chemicals that could be dangerous to either animals or humans 
at the zoo. And I think we are hopeful that with these actions, 
with the putting in of new positions for oversight, that that 
situation will be dealt with.
    Three years ago there was a situation involving two animals 
that are called Grevy's zebras. I know about this because a 
couple of months after I came to the Smithsonian, I was 
testifying before the House Appropriations Committee that deals 
with the Smithsonian, and that question was raised then. It was 
amply covered in the press; I commented on it then. And that, 
too, was a case where there was a combination of factors that 
represented human failure.
    And I think that if you went back over the zoo's history--
certainly, I don't think there are records that take you back 
to 1889 on this--you will find that there is a very small 
percentage involving this population of animals--which, as I 
say, is 2,800--where occasionally mistakes are made--it is not 
good that the mistakes are made; it is bad, it is terrible--but 
mistakes are made which resulted in the death of animals.
    That is one category, and to our knowledge, there is 
perhaps a handful of those over the last 3 or 4 or 5 years. Not 
to say that there isn't something I don't know about, but to my 
knowledge, there may be just a handful of those.
    Then there is the other category. The other category is the 
category where there is a diseased animal of some sort, or an 
animal who is not diseased, could be a geriatric animal nearing 
the end of its life span. And what happens is the zoo cares for 
these animals with teams of people who are curators, 
pathologists, veterinarians, keepers and they monitor the 
health of the animals. In some cases, they decide the animal is 
at a point in its life where life is too painful and they 
euthanize the animal. Some of these deaths have resulted from 
the collective decisions to put the animal down, to euthanize 
the animal. In other cases, they couldn't figure out what was 
wrong with the animal and weren't able to cure it, and it died.
    And all of the cases, other than the ones that we have read 
about in the press, whether the red pandas, zebras or a few 
other animals, all of the other cases fall into the second 
category. When those have been investigated, in some cases by 
our Inspector General, in each case we have had the same 
general answer that has come back: The decisions made have 
fallen within what you could call the realm of professional 
judgment. And some professionals, in the blinding light of 
hindsight, might have gone this way, some might have gone that 
way.
    I have been on the board of a major hospital for 15 or 20 
years in the United States, and there are in that hospital, all 
hospitals--every year there are some mistakes that occur, not a 
lot, but some mistakes that occur that can be fatal. And then 
there are many, many cases where physicians might disagree in a 
postmortem on exactly what treatment regiment should have taken 
place.
    So, just to sum up, I think there are definitely a small 
number of cases which have taken place which involve human 
error and poor management, and then there are a number of cases 
that involve differing judgments after the animal has died or 
been euthanized as to what would have been a better way.
    As I say, we are very open to the idea of creating a panel 
of external experts to come in and be completely independent 
and public about their findings in terms of looking into this 
matter. We are also perfectly willing to have our status 
modified, so that the Department of Agriculture can make 
surprise visits to check the situation at the zoo.
    The Chairman. I am not going to ask additional questions at 
this point in time because I want the other members to be able 
to ask overall questions about the Smithsonian and obviously 
the zoo as well. But I leave this thought about what steps or 
procedures have been taking place, or are taking place, beyond 
what the committee is going to do with oversight, which is 
critical and important.
    And I want to commend you for accepting that oversight. I 
am sure that we will continue to work together to make sure 
that that oversight is done correctly and follows all the 
procedures it needs to.
    But there--it also raises other questions. For example, 
there was a quote by Dr. Spelman, and there are quotes in the 
media--and I know, I have been in office 22 years, so you can 
quote something and maybe there is another side to it--that 
only the panda death was attributable to human error. So you 
might want to, at some point in time, clear that quote up, 
because that has become a controversial quote.
    With that, I will yield to our ranking member.
    Mr. Larson. Thank you, Mr. Chairman.
    Following along the lines of the chairman's questioning, I 
think that the call to have the National Academy of Sciences do 
a thorough and complete and independent investigation of the 
deaths that have occurred, I think is the appropriate manner in 
which to proceed.
    Along the lines of my colleague, Juanita Millender-
McDonald, we are looking for that independent analysis to come 
back and further inform the committee as well. And I am pleased 
to hear that you are open, as well, to the unannounced 
accountability that would accompany the Agriculture 
Department's routine reviewing of others across the Nation.
    Could you explain to me, please, why the Smithsonian would 
be exempt form that currently? This is a question that has been 
raised by constituents of mine and, most notably, my children, 
who have visited the zoo. If you explain that, I would greatly 
appreciate it.
    Mr. Small. I really don't know the facts behind it, 
Congressmen. There are a number of situations, because of the 
unique status of the Smithsonian, which is a trust 
instrumentality of the American people, which have caused it to 
be treated slightly different than other institutions, 
particularly the executive branch of the government and all of 
the other parts of it. So I can only guess that it goes back to 
that.
    Perhaps--do you know David?
    But it is because of the Smithsonian's, I think, having its 
public-private status as a trust instrumentality that it 
probably wasn't placed specifically under this law. But as I 
indicated before, we have no objection whatsoever and are 
perfectly comfortable with modifying that status so that we 
would be subject to it on a mandatory basis.
    Mr. Larson. I think you for that point of view. I think the 
unannounced inspections will be very helpful, again, in 
reassuring the public as well.
    Let me also say that I further embrace the chairman's focus 
with regard to science. I, along with Mr. Ehlers, serve on the 
Science Committee as well, and in my initial conversation with 
you, I was impressed with the depth and breadth and scope of 
the Smithsonian and its mission with regard to scientific 
research. And in keeping with my opening remarks, I hope to 
make other Members of Congress deeply aware of this mission and 
make sure that it gets the appropriate kind of funding that it 
deserves.
    Having said that, I will yield back my time.
    The Chairman. The ranking member yields back.
    Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    And thank you for being here. The Smithsonian is indeed a 
great American treasure, and you probably have the best job in 
the country.
    Mr. Small. I agree with you. Thank you.
    Mr. Ehlers. They are not only the ``Nation's attic,'' which 
is a familiar description, but they handle it very well. And 
also, as Mr. Larson said, a great deal of your work is in the 
scientific realm.
    The only comment--I think your lending of objects to 
various entities in the country is superb. You should do that. 
I hope you expand that. And you mentioned that you notify the 
public and everyone else. I might make a point of being certain 
to notify Members of Congress when an object from your museum 
is in their district, because I have a couple of times found 
out--to my surprise found out they were there, and I hadn't 
heard about it.
    I want to talk to you about animals, too, but not the zoo 
animals. You have some of the best people in the world dealing 
with invasive species, particularly with the Smithsonian 
Environmental Research Center in Panama, which I had the 
pleasure of visiting last year. It is a great place and 
certainly worthy of continued support.
    But invasive species are becoming a huge national problem 
at this point. It as a surprise even to me. I knew a lot about 
them, but I had a idea the cost to our Nation per year now is 
$135 billion per year. That is the latest estimate, and that is 
a terrible expense to pay.
    I have introduced a bill on improving our approach to 
invasive species, so we can better stop them from coming in and 
know better what to do with them once they are here--also, 
collaborating with Congressman Gilchrest, who is authoring the 
reauthorization of the Invasive Species Act. These bills are a 
package, which is also being introduced in the Senate by 
Senator Levin and Senator Collins.
    We have chosen in that to continue to give your facilities, 
particularly CIRC, a major role in the continuing work on 
invasive species. I want to get that you were comfortable with 
that and supportive of that because that will continue to 
delegate significant responsibility to the Smithsonian to 
handle that.
    And I believe Mr. Evans is totally familiar with that too.
    Mr. Small. We couldn't be more supportive. I agree with 
you.
    Mr. Ehlers. I am very pleased to hear that. There is a 
great deal of research that will have to be done and we 
certainly welcome your participation in that. Your scientists 
were very helpful to us in writing the bill, as well.
    Another comment, as Congressman Larson mentioned a moment 
ago in the scientific role, that is a role that many people in 
the public aren't aware of. But yet traditionally in the early 
years of the Smithsonian that was the most important role, 
following the charge from Joseph Smithson that was to advance 
and extend understanding; and that didn't mean just showing 
objects in museums, but conducting research. I welcome the 
recent efforts to reemphasize that role.
    I am certainly not arguing for reducing the role of the 
institutions you have, that is always very important, but you 
have lost some of the focus, I think, over the last 20, 30, 
maybe 50 years on scientific research. You have much to offer 
there because of the background of the Institution and the 
worldwide reach of the Institution. So I hope you and the 
Regents will continue to emphasize that and try to increase the 
funding.
    Let the record show, he nodded his head.
    Mr. Small. Let the record show, I said I agree with you 
too.
    Mr. Ehlers. The other issue, I know there has been a move 
to stop that funding and require you to apply to the NSF for 
that funding, and I am pleased you were able to beat that back. 
I am a strong, strong supporter of the National Science 
Foundation and was very active in getting the bill passed last 
year which will result in doubling NSF--we hope, doubling NSF 
appropriations over the next 5 years. But at the same time you 
have a unique role which doesn't necessarily fit in the 
National Science Foundation's panoply of responsibilities.
    I am pleased that you were able to remain separate, and I 
hope that you and the Regents will continue that effort. I will 
certainly continue it here. But at the same time I think you 
should be trying to follow what we have already done with NIH, 
what we are hoping to do with NSF, and that is doubling the 
research effort. If you and the Regents get behind a well-
thought-out doubling plan, we can certainly try to get some 
congressional support for that as well.
    Mr. Small. Would you like to say that again, Congressman, 
for the record?
    The Chairman. We have got him right there on record.
    Mr. Ehlers. So now we need you on record.
    Mr. Small. I couldn't agree with you more, and you can 
count on our efforts to be redoubled in that regard.
    Mr. Ehlers. Thank you, Mr. Chairman. I will stop at this 
point. I may have others later.
    The Chairman. The gentlelady from California.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman.
    Mr. Small, you mentioned, and thank you so much for 
offering to provide the--I guess the ``sneak attack'' for lack 
of better words, for the inspection to come unannounced. I 
think it will lend credibility to the Institution and certainly 
will glean from that that you have nothing to hide, in other 
words.
    The other thing that I wanted to talk with you about is, 
you get two-thirds of your budget from us and the other third 
you have to go out and solicit the funding. So, as a result of 
that, you have seen the need to rename facilities after those 
who have been donors to you.
    What type of practice do you put in place for that 
renaming, or is it just done, you know, independent of any type 
of organizational group?
    Mr. Small. Thank you.
    As was mentioned by the chairman in his remarks, the 
Smithsonian does rely to a certain degree, one-third of its 
funding, on private-sector sources. It has always had a mix, 
and its private-sector dependency goes back all the way to the 
founding of the Institution, which started with a bequest that 
was first put into a will in 1826 and ended up being announced 
to the American people in 1835, in that will there was a 
bequest that came to the United States from a British scientist 
who is the source of the name of the Smithsonian.
    So the first naming, that took place related to private 
philanthropy of the Smithsonian, comes from the name of the 
founder, James Smithson. Other parts of the Smithsonian are 
named for philanthropists--the Hirschhorn Museum, the Cooper-
Hewitt Museum, the Freer Gallery, the Sackler Gallery.
    So the recognition of philanthropy, which is something that 
is very much a part of American culture, is very much alive and 
well in the Smithsonian and very much represented in what we 
see at major universities, libraries, and medical centers.
    The Smithsonian has for many years had rigorous procedures, 
written procedures that have been followed for such activities 
as recognition of corporation, foundations, individuals when 
they contribute support for the Smithsonian, whether it is for 
fellowships, for programs, for exhibits, for concerts or the 
like. The activity----
    Ms. Millender-McDonald. There is a procedure for that?
    Mr. Small. Oh, very definitely.
    Ms. Millender-McDonald. And it is not done independently.
    Mr. Small. No. Much of the procedure involves--the naming 
of anything must be approved by our Board of Regents.
    Ms. Millender-McDonald. That is what I want to hear.
    Your decrease in Federal staffing--I am just getting over a 
cold, so please excuse me. Your decrease in Federal staffing, 
does that come through attrition, promotion or low morale, or 
how do you suggest this decrease has come about?
    Mr. Small. The decrease comes about by simply not being 
appropriated enough money for salaries to cover the mandatory 
salary increase that must be given to Federal employees. So if 
we are--let's just assume that in a given year there is a 
mandatory salary increase of 4 percent and we are appropriated 
a budget that increases by 2 percent, the only way to deal with 
that is to reduce the staffing level of the Smithsonian.
    Ms. Millender-McDonald. Are they furloughed out or just 
terminated?
    Mr. Small. More often than not what happens is simply 
through the turnover process of retirements, through attrition, 
it has taken place. But it is very, very serious, particularly 
in the sciences. The ranks of the scientific scholarly staff 
have been tremendously depleted over the last 10 or 15 years.
    Ms. Millender-McDonald. It is very serious because-not only 
with the Smithsonian; it is also serious for all, other 
agencies within the Federal Government. And this is something 
that we must look at in terms of keeping, really, persons who 
have the institutional memory around, and training, as they 
become older, because as you said to us, 10 percent, only 10 
percent of your staffing is under the age of 40. And so we are 
going to lose out if we are not training and bringing people in 
in the meantime.
    You are traveling around the country and certainly you have 
been in my parts of Long Beach, unbeknownst to me, but that is 
good to know; I will get you out there more often. But then the 
next question will be, whether I do or not, the costs 
associated with that. That is a rather ambitious undertaking, 
how do you pay for this traveling around, setting up these 
different art exhibits or whatever?
    Mr. Small. In the case of our affiliations program, which 
is the one for traveling expeditions, a very significant 
portion of the expense is raised from the private sector. So 
part of the money that would come from our gift shops or 
restaurants goes into that, part of the payout of our endowment 
goes into that, and in some cases, we have Federal support for 
specific projects.
    But a great deal of what we do in the way of national 
outreach across the country comes from private-sector 
sponsorship.
    Ms. Millender-McDonald. The last one that I would like to 
talk about, the clear human error when it comes to the care of 
our animals. When there is a human error, what type of punitive 
measures do you have in place? Because there certainly has to 
be something to curtail this type of incident from happening 
again. So what type of punitive measures do you have in place?
    And lastly, when persons are coming on at the higher 
echelon of the Institution, do you have a yearly annual 
appraisal of how well they are doing? And is this told to the 
person?
    Or the lack of having--doing well in this position, what do 
you do? What are you doing to make sure, to ensure that the 
persons who are at the helm are really efficient and do know 
the job?
    Mr. Small. Regarding the first question, when there are 
failures in carrying out one's duties, there are certainly 
actions taken. In the case of animals where deaths have 
occurred because of human error, call it, during the period of 
the last 3 years or so, in some cases it was deemed by the 
supervisors in charge--let's say in the zoo, the Director of 
the zoo--3 years ago, the then-Under Secretary of Science to 
indicate the lack of performance in a performance assessment. 
That might have had a negative comment in it, in that 
particular case, because of the judgments made.
    In the more recent case of the red pandas, there was a 
reorganization of the zoo; two of the employees involved 
retired, another one was reassigned to a different position. 
New people are being brought in, new procedures are being put 
in place--very straightforward, quick action taken to deal with 
that particular situation.
    Regarding your second question, all of the executives of 
the Smithsonian receive annual appraisals, all of the 
executives of the Smithsonian have specific annual goals they 
must achieve. I personally review, I would say, the top 35 or 
40 myself.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    The Chairman. Mr. Mica of Florida.
    Mr. Mica. Thank you, Mr. Chairman and thank you also for 
holding this oversight hearing. It is the first one I recall 
directly related to one of our most important institutions, the 
Smithsonian.
    And to reiterate what Mr. Ehlers and some others have said, 
you truly have probably one of the most incredible 
opportunities of anybody in the Nation to be responsible for 
our Nation's treasures--the Archives, the Library of Congress--
and you sort of hold all of our treasures. And it is a great 
responsibility.
    Also, I think you have heard once or twice also, not 
everybody can come to Washington; and you testified that a 
small percentage of these items, artifacts and other things 
that you hold, where they can be circulated. We strongly 
encourage that because we have hundreds of great small museums 
throughout the country. So I think that is very important in a 
cooperative effort.
    Oversight. You spoke--well, this is the first hearing that 
I know of in 6 years, and some people have come up to me and 
said, Why haven't you conducted oversight? You did testify 
earlier that the appropriators conduct oversight, and you have 
done that each year since you have been in office.
    Have you presented----
    Mr. Small. I have had one hearing with them over the course 
of the last 3 years.
    Mr. Mica. One hearing. What about oversight, the conduct of 
oversight from them?
    Mr. Small. There is tremendous interaction with the 
Appropriations Subcommittees that deal with the Smithsonian. 
And the staffers on the Hill and the people in Congress on 
those committees are extremely involved in the Smithsonian.
    Additionally, the Board of Regents of the Smithsonian has 
nine public-sector members and eight private-sector members. 
There are three Members of the House who are members of the 
Board of Regents and Three Members of the Senate who are 
members of the Board of Regents; all of them are actively 
involved in the governance of the Smithsonian, as is the Chief 
Justice of the United States, who is actively involved.
    Mr. Mica. So you feel the oversight is adequate?
    Mr. Small. I feel it is very strong.
    Mr. Mica. What about IG?
    Mr. Small. We have an IG and full staff.
    Mr. Mica. There are now missing positions. The last 2 or 3 
years, that has been a full service?
    Mr. Small. As far as I know, they are up to--I meet 
consistently with the IG, and I have never----
    Mr. Mica. Is there a complaint process?
    Mr. Small. Yes. We have an omnibus person that----
    Mr. Mica. Also for the public, if they have complaints 
about conduct operation?
    Mr. Small. No shortage of ability to communicate.
    Mr. Mica. All right.
    Positions: I have reviewed some of the information, your 
budget submission, I think, by the President was 566--$566 
million, over half a billion. What percentage increase is that 
over last year, or is it a diminished amount?
    Mr. Small. The amount--that is the 2004 one. That is just a 
1.4 percent increase.
    Mr. Mica. What were you--so it is an increase. Where were 
you at least----
    Mr. Small. 594 million.
    Mr. Mica. And before that?
    Mr. Small. 528 million.
    Congressman, can I correct myself on answering your 
questions on the Appropriations hearing. I forgot. I had two 
Appropriations hearings; I had one with the Rules Committee 
also.
    Mr. Mica. So there have been three.
    Mr. Small. I have been three years in the job. I had two 
hearings with the House Subcommittee on the Department of the 
Interior and Related Agencies of Appropriations.
    Mr. Mica. For the record, I would like to know what the 
sequence of that is. So maybe you could provide that. It will 
be part of the record, so we know what we have done and what we 
should be doing if we haven't.
    Private money, you had a decline in private money. Was 
that--did that begin after September 2001?
    Mr. Small. That is correct. We had----
    Mr. Mica. Was it necessary to cut any positions--was it 
necessary to cut any positions, full-time equivalent positions, 
because of the diminished private dollar contributions?
    Mr. Small. Yes.
    Mr. Mica. And how many positions were lost?
    Mr. Small. Since 2001, we have reduced--of those employees 
who were funded with private-sector funds, 235 employees.
    Mr. Mica. What about other full-time equivalents under 
Federal salaried positions?
    Mr. Small. There have have been some reductions, but not 
related to 9/11.
    Mr. Mica. Basically, you have the same number.
    Where have those reductions occurred?
    Mr. Small. There are--I couldn't answer it specifically. It 
depends really on the attrition.
    Mr. Mica. Of course, everyone is going to ask about the 
zoo. So tell me about the zoo.
    Mr. Small. The zoo has had a decline in staff of 15-plus 
percent over the last 10 years.
    Mr. Mica. Now let us go back--it had a decline over 15 
years?
    Mr. Small. No. Ten years.
    Mr. Mica. What about the last couple of years, how much of 
decline has been since September 11? What I am trying to get 
at, are there diminished personnel resources going there?
    Mr. Small. The zoo--where September 11 has an impact on the 
Smithsonian is that one-third of the employees who are funded 
with private-sector dollars. September 11 hasn't really 
affected directly the two-thirds that are funded with Federal 
dollars.
    Mr. Mica. The zoo is also that ratio?
    Mr. Small. No. The zoo is much more heavily federally 
funded.
    Mr. Mica. What loss of positions have you had at the zoo 
since September?
    Mr. Small. Out of the almost 300 employees, it is just a 
few, because the Federal funding at the zoo has remained 
relatively constant.
    Mr. Mica. So it is not a diminished personnel problem.
    Are there any key positions that are unfilled now or since 
2001--I don't know if you have--or whatever kind of personnel?
    Mr. Small. We need some more funding for the new senior 
animal care positions.
    Mr. Mica. But my question wasn't that.
    My question is, are there any questions that have been 
vacant or not filled for some reason--lack of money or finding 
a qualified person?
    Mr. Small. Right now, not for lack of money. Simply, in 
some cases there are open positions.
    Mr. Mica. And no positions cut or eliminated of key 
management, oversight, veterinary?
    Mr. Small. I am told--not more than five to six people over 
the last few years out of the total complement, the physicians, 
reduced. And we are not hampered in finding good people.
    Mr. Mica. We are here to conduct oversight.
    Changing subjects, just a quick second, if I may, Mr. 
Chairman. We are building a Visitors Center; has anybody 
contacted you about exhibitions in the Visitors Center?
    Mr. Small. There have been conversations over the last few 
years, and the Smithsonian is willing to be as helpful as we 
can.
    Mr. Mica. I just want to make sure that is being done. That 
is one of my pet projects.
    I think that covers it for me, Mr. Chairman.
    Ms. Millender-McDonald. Mr. Chairman, may I just ask is Dr. 
Spelman in the house? Is it permissible to raise questions to 
her?
    The Chairman. Yes. And we will start the second round here. 
I wanted to make a note on the Visitors Center, which I think 
is a tremendous project. The advice and assistance of the 
Smithsonian is going to be critical to it, and also the Library 
of Congress. I think both of those institutions have a 
tremendous amount to offer when the public will come forth. 
Right now, they stand out in the hot sun, no seats; you pass 
out. You go inside, and there are two rest rooms for 3- or 
4,000 people.
    This will not only provide decent human accommodations that 
the public of this country and the world deserve, but on top of 
it, it is going to have--it is a wonderful project that you 
spearheaded, Congressman Mica, that is going to provide a lot 
of education, interactive ability to look at the history of 
this country.
    I had two questions, and we will go right back down the 
line of questioners. On the first, on the issue of private 
donations, there is always a give-and-take argument about the 
Smithsonian's ability to maintain content control, getting 
private donations.
    I think you might want to expand a little bit on that how 
you have do that.
    Mr. Small. The Institution, I think, has done a superb job 
in its almost 167 years of history. There is no question in the 
negotiations with people, let us say in the private sector or 
anyplace else that would deal with us to support exhibits, that 
the curators and museum directors and the administration of the 
Smithsonian must retain content control. And I would say over 
the history of the Smithsonian, that has been precisely the 
case.
    That is a key point. Our Board of Regents insist on it. It 
is in our written procedures. It is in what we communicate to 
donors when we negotiate arrangements with them. And all I can 
say is, I believe it is adhered to in as rigorous a fashion as 
it possibly could be.
    The Chairman. The gentlelady has made a request for 
Director Spelman to come forward.
    Ms. Millender-McDonald. I would like Dr. Spelman to come 
forward.
    The Chairman. I am sorry. If I could interrupt just for a 
second. We will go to Mr. Larson.
    Mr. Larson. Thank you, Mr. Chairman.
    Let me welcome Dr. Spelman as well and let me start as well 
again, and I think--as Mr. Mica pointed out, thank the chairman 
for this oversight hearing as well. Obviously, the concern with 
regard to the zoo has been debated widely in the press and 
certainly is on the minds of our constituents.
    I mentioned my children--I think children all across 
America, because the Smithsonian and the National Zoo are, in 
fact, treasures of the nation in your safekeeping. The 
questions that I have--and again, I want to thank the 
Secretary. I think--when you were answering the questions that 
were posed by the chairman, you indicated that there were two 
groups and they fall into the categories of human error and 
also of natural causes due to disease and old age.
    I think what is on the minds of--and I would like to ask 
these questions, and I also have questions that constituents 
have sent me that I would like to ask unanimous consent to 
submit them for the record and have the Secretary or his staff 
respond.
    But the basic question the public has been asking on the 
deaths of the red pandas is, how could this happen? You 
explained from your perspective the two groups that you feel 
these categories fall into, and you started down the path of 
explaining what can be done to ensure that this never happens 
again. And I would like to hear more on that.
    Secondly, have there been any health-related after effects 
on personnel who became ill following their exposure to the 
poison in the enclosure after the panda died?
    Third, because you mentioned you focused on the problems, 
the problematic concerns of rodent control, are poisons or 
other hazardous substances used and stored in such a way that 
there is never a risk of exposure to the general public, or are 
they only brought in by outside contractors?
    Fourth, has the poison ever been used before in animal 
enclosures during rat extermination procedures at the zoo?
    And my overarching question with respect to rodent--the 
rodent eradication program: Is the problem more severe now than 
it has been over time?
    And finally, with the recent deaths at the National Zoo, 
what impact will that have on your accreditation when the 
National Zoo's accreditation renewal is due?
    Ms. Spelman. Okay. Thank you, Mr. Chairman. It is an honor 
to be here.
    I have been at the National Zoo for nearly 8 years, and 
everybody who works there works there because of their 
dedication to the animals, myself included. It is a wonderful 
place. It is a peaceful place. It is a natural place. And yet 
it is an older facility.
    And as the Secretary noted, not only are we renewing our 
facilities, many of which are 75 to 100 years old, but we are 
also looking at renewing our staff, our programs, our 
commitment to science. It is an exciting place. There is a lot 
of change.
    With respect to the red panda incident, as you mentioned, 
people were sickened by the use of the rodent bait. And 
experienced staff in supervisory positions who were aware of 
the chemical being used did not share that information or 
disseminate in a way that is considered best practice at any 
zoo.
    We are currently reviewing all of our best practices, all 
of our procedures. And with respect to chemical use, both 
rodent control and any chemical in the whole park, whether it 
is an animal area or nonanimal area, we have put in place an 
entirely new procedure by which all chemicals used are reviewed 
by all levels of major divisions within the zoo--the animal 
care staff, the veterinary staff, the facility staff.
    Mr. Larson. How are the chemicals introduced? Is it 
exclusively through outside contractors?
    Ms. Spelman. No. We use chemicals that are used in 
laboratory. We have a whole research element at the National 
Zoological Park as far as Smithsonian science. So we have any 
chemical that is being used in a research setting or used to 
clean an animal area.
    All such chemicals will now be reviewed by a series of 
people, with a final review done by our head pathologist, who 
is veterinarian, with all chemicals signed off by the zoo 
Director, myself. And that is a new procedure and one by which 
we will prevent any future tragic mistake like red pandas.
    Mr. Larson. In your mind, what have the unannounced 
inspections--how do you view that? Is that viewed in the mind 
of someone who is responsible for the National Zoo as a 
positive step forward?
    Ms. Spelman. I review that as very positive. I welcome an 
outside panel to come in and look at our procedures and 
practices.
    We are renewing the entire organization. We have a lot of 
changes to make, but we also have a wonderful future, and the 
Zoo and Aquarium Association accreditation process, which is 
something that comes up every 5 years. Our recent site visit--
several team members come and visit the Institution in the 
review process, and their exit interview report to me was 
extremely helpful. They noted many of the longstanding 
problems, and they noted the changes that we are making; and 
they were quite positive that those changes were going in the 
right direction, including the fact that they noted that there 
was a sense of optimism amongst the staff that we were going 
forward into the future.
    Mr. Larson. One of the questions I asked was, how do you 
think this will impact accreditation, you know, with what has 
transpired?
    Ms. Spelman. My view is that the more outside expertise we 
can bring into our Nation's zoo, the better. I mean, I really 
do welcome it.
    We do have a large staff. We have a wonderful zoo. And we 
are part of the Smithsonian. And in order to incorporate 
expertise, we do need to seek it from the outside. The 
inspections will be helpful, as will the independent review 
panel.
    Mr. Larson. I will just conclude by saying this.
    I am sure that you are applying all your expertise and 
energy to ensure the best outcome for what is a national 
treasure. I think someone described it to me, when one of the 
animals that is so well known dies, it is like a death in your 
own family and becomes a national tragedy to that extent.
    And clearly--again, I commend the chairman. I think that 
the Academy will do much to assist as we go forward to what we 
all hope is the conclusion that this--we put in place the 
appropriate procedures, so this never happens again.
    Ms. Spelman. If I could just add that of all the people in 
the Zoological Park, every death affects me the most. At the 
same time, we celebrate animal life at the National Zoo. And I 
welcome everybody to come and visit. It truly is a wonderful 
place.
    Mr. Larson. Thank you, Doctor.
    The Chairman. I wanted to just throw a few things out, just 
because of the nature of the controversy and the press 
statements. I think we have got an agreement with the National 
Academy of Sciences that is appropriate, that they will work 
with you. We will make sure we have oversight and a working 
relationship with all the Smithsonian issues.
    But I think--I will move on to the other members--but I 
think it would probably serve in the best interest if you would 
want to make some statements, for example, there was the issue 
of the bobcat and the onager, the three Eld's deer--we 
understand that dogs went under the fence, which houses 
thousands of acres, and understandably it is difficult to 
control where a dog digs under the fence.
    The issue of the bobcat, the Persian onager and the lion: 
The lion had died of complications from anesthetics is what the 
statement in the paper noted; and the orangutan, mistakenly 
thought to be suffering from advanced cancer; the Persian 
onager died of salmonella after riding in a contaminated 
trailer; and the bobcat, there was an issue about the bobcat 
being euthanized after a diagnosis of arthritis that was 
subsequently discovered to be something else.
    And, again, I thought you would want to make statements of 
the more highlighted issues in the media.
    Ms. Spelman. I need to keep my responses short and I 
respect that.
    I think one thing that is important to understand is that 
in a zoological park, the day-to-day animal care is the 
responsibility of the animal keeper staff. In our case, we have 
keepers, museum specialists and biologists, and they are 
supervised by curators, curators who not only oversee the daily 
operations, but also the animal collection, the species that we 
have in the zoological park, the species that are involved in 
science and in exhibition. The veterinary staff is called upon 
when there is a health issue.
    So with each case, whichever way you look at each case, 
there are many, many facets.
    The Secretary described very well that euthanasia is never 
performed lightly. It is performed based on consensus amongst 
the keepers of the animal, the curator responsible for those 
keepers and that animal, and the veterinary staff with their 
best information at that time as to what they can do best for 
the animal.
    The bobcat was an older animal that had been found to be in 
a moderate stage of renal failure several months prior. And the 
request of the keepers and the curatorial staff was that this 
was an animal they wished not to go through another medical 
procedure, and when the animal was not doing well, they 
requested euthanasia.
    In a zoo setting, again unlike a domestic dog or cat, most 
animals have to be anesthetized in order to be examined by the 
veterinary staff. That is a stressful event for many of them. 
They either have to be netted or darted. And they are wild 
animals. So the decisions on how to work with animals when they 
are older or sick is complex, and it is different in each case.
    And again, as the Secretary indicated, these are cases when 
one could look at it professionally and make a different 
diagnosis while the animal is in life from when the animal is 
in death.
    We learn a lot in zoological medicine, in particular when 
animals die. It is part of the piece of the puzzle that is 
medicine.
    I could go on and address each individual animal, but I 
think that would take some time. I feel we have made a great 
effort to put out the information, and presumably this is 
information we can put out again with the panel that comes to 
look at any of these cases. We have an extremely professional 
staff and extremely dedicated staff, and these are not simple 
cases.
    The Chairman. We look forward to that.
    The gentlelady from California.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    Welcome, Ms. Spelman. What are the criteria for becoming 
the head veterinarian in this particular institution? What are 
the requirements for becoming the head veterinarian?
    Mr. Small. My requirements for my head veterinarian--and it 
should be clear that we have two facilities. We have the zoo 
here in Rock Creek Park, and we also have the research facility 
at Front Royal; and we have a head veterinarian at each 
location who then, in turn, supervises additional veterinarians 
and animal hospital staff.
    Both of our head veterinarians are board certified 
specialists in zoological medicine. Veterinarians, similar to 
human positions, specialize in different areas of expertise. 
The Zoological Medicine Board is a very small group of 
professionals. I believe, by now, there are somewhere on the 
order of 70 in the world; we have five on our staff. We have an 
exceptional veterinary staff that are known as leaders in their 
field.
    Ms. Millender-McDonald. What are the requirements for 
becoming that head veterinarian?
    Mr. Small. To have that board certification, to be 
accomplished in their field, to be published in their field, to 
have had experience supervising staff at other veterinary 
hospitals, to have had the experience of working collectively 
and collaboratively with curatorial staff.
    And again, the veterinarians are to some extent a service 
to the animal caretaker staff, and they do rely, when there are 
2,100 animals, on the animal caretaking staff to----
    Ms. Millender-McDonald. Let me ask you, board 
certification, does it mean that you have to have had so many 
years of intern training before you get board certified?
    Ms. Spelman. Yes.
    Ms. Millender-McDonald. What is the definition of board 
certification?
    Ms. Spelman. In order to become board certified, in order 
to take the board certifying examination, the requirement is 
veterinary school training, post-veterinary training that is 
usually a 3-year training program in zoo medicine or 5 years' 
worth of practical experience running a zoological medicine 
department.
    Ms. Millender-McDonald. Did you have either of those coming 
into the head veterinarian role?
    Ms. Spelman. Yes, I did. I had those requirements when I 
came here as associate veterinarian, which was nearly 8 years 
ago.
    Ms. Millender-McDonald. Let me ask you, for the rodent bait 
that we now know several animals, pandas, died from this, you 
mentioned that before now--you put into place now that the 
Director and you have to sign off on this.
    Who were the signees before you put that in place, given 
the deaths of the pandas and others?
    Ms. Spelman. The current procedure is that I will sign off 
as the Director of the zoo on all chemical use. The head 
pathologist, who is our most experienced veterinarian in the 
study of pathology, will prior to that recommend to me any 
chemical use, whether it is for rodent control or research 
purposes.
    Prior to that, the policy rested within the safety office 
where our pest control and chemical use----
    Ms. Millender-McDonald. What office?
    Ms. Spelman. Safety.
    And the procedures were based on what needed to be perfect 
communication between the safety officer and the head of the 
animal programs division and the keepers and the curators.
    Rodnet control--as you know, rodents go everywhere. They 
don't know where the gate to Connecticut Avenue is by the zoo. 
We have them everywhere. And because we put fresh food out with 
the animals, we have to work on rodent control where our 
animals are not. And that is an established best practice, and 
that was violated in the case of the red pandas.
    Ms. Millender-McDonald. And that was violated by whom?
    Ms. Spelman. By our safety officer, who was in charge of 
pest control, with the knowledge of the head of animal programs 
and the senior curator of animal programs.
    Ms. Millender-McDonald. And this is a practice that was 
done before?
    Ms. Spelman. This was the first time this chemical was ever 
used in an animal area. The best practice in any zoological 
park is, a pest control chemical is never used in an animal 
area with the animal in the exhibit.
    Ms. Millender-McDonald. So why was it this time?
    Ms. Spelman. That is why we have reorganized our animal 
program staff.
    Poor oversight, poor judgment. And people became sick, as 
well as two animals dying.
    Ms. Millender-McDonald. The persons who administered this, 
unbeknownst to you--am I correct on that--what punitive actions 
have you put in place for those persons who administered this 
unbeknownst to you?
    Ms. Spelman. They are no longer supervising--they are no 
longer in charge of either such duty. Pest control and chemical 
use have moved to our head pathologist, away from our safety 
office; and we have established a new position, a position that 
the zoo has not had since 1986. That is somebody who will focus 
only on the day-to-day animal care operations.
    Ms. Millender-McDonald. Are you saying that these folks are 
still with you?
    Ms. Spelman. As the Secretary indicated, two of those 
people chose to retire, and one was reassigned. We have hired 
in the acting position of general curator, a former curator for 
the National Zoo, a former staff member who had been with us in 
a supervisory position for 28 years; he is currently in that 
role. And we have a nationwide search out for a permanent 
general curator; and we have many, many promising candidates.
    Ms. Millender-McDonald. How many animals have died since 
you have been there as the head veterinarian? And how many 
animals died prior to your coming?
    I am trying to get a sense of where we are going.
    Ms. Spelman. I came to the zoo 8 years ago. Each year we 
tabulate the numbers of animal deaths, just as any zoo does. I 
would need to provide for you the actual numbers per year. I 
don't have those numbers in my head.
    Ms. Millender-McDonald. Thank you. I would like for you to 
do that, and I would like to know the number of deaths of 
animals by natural cause and the numbers of those who by other, 
means, human error.
    Ms. Spelman. And it may be helpful for us to also ask the 
outside panel to help in that distinction. As the Secretary 
mentioned, there is a professionalism--difference of opinion 
that can come up with respect to when the animal has died and 
the pathology report is available.
    I think it would be helpful to have the panel look at those 
cases with us to say whether we want to say human error or 
whether we want to say this was the best judgment made, given 
the available information.
    Ms. Millender-McDonald. That should be up to the 
pathologist to discern that. He or she is in that role to make 
that decision; am I correct?
    Ms. Spelman. They have all of the powers, and the fact that 
they have all of the data, but when the animal is in life and 
judgments about how to manage it most safely and how to care 
for its quality of life, again that involves the curatorial 
staff, the veterinarians.
    It is a complex environment, but I welcome the outside 
look. It will be helpful.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    The Chairman. Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. Several additional 
comments I would like to make, and I wonder if Dr. Evans could 
come to the table as well.
    First, Mr. Small, I didn't continue all the way through 
because I had taken quite a bit of time my first round, but I 
have concern about this; it is in your written testimony.
    The only mention you make of research is that your attempt 
is to keep the research program intact. My point is simply, I 
hope you are doing more than trying to keep it intact, but 
trying to make it applicable to the problems today.
    Mr. Small. The first priority is to keep it intact, because 
it has been so depleted over the years. So I would be very 
happy getting back to where it was, and then would love to be 
able to continue to increase it. But right now what has been 
happening is, the dollars for research have been trending down, 
and we have to get them back to where we were. So ``intact'' is 
not meant to be a lack of interest in increasing the research.
    So I am on the same line of thinking that you are. We have 
to get more money for it. That is what our Science Commission 
report emphasized recently, and Dr. Evans is working very hard 
at doing that.
    Mr. Ehlers. It is not just a matter of increasing funding, 
but also improving the research. Your own blue ribbon group, 
the Smithsonian Institution Science Commission, I think was 
fairly tough on you on what has happened to science at the 
Institution. And the NAS report, I haven't had time to review 
in any detail, but I understand they were critical as well.
    Are you, Dr. Evans pursuing meeting the objections raised 
in this, the inside report and the outside report?
    Mr. Evans. Yes, we are. I think all three of those reports, 
the two reports from the two National Academy panels as well as 
the Smithsonian's Science Commission report are actually very 
helpful. I think they highlight both the traditional strengths 
of the science and maybe, as importantly, they highlight a lot 
of the difficulties that have evolved in the Institution in 
recent times.
    You are right, they are quite critical. I think they are 
quite pointed, but in many ways that makes them really quite 
valuable. The Board of Regents have given me until the 
beginning of July to develop an implementation plan for 
implementing the recommendations made by the Science 
Commission. And the Science Commission actually included, by 
reference in their appendices, the two National Academy reports 
as well.
    So although I just arrived at the Institution, I was given 
a fairly full plate of recommendations. And I will tell you, 
now, having spent a lot of time with those recommendations, I 
think there is a lot of substance to them. There is serious 
concern about the way some of the programs have been reviewed, 
with recommendations for external visiting committees and 
incorporation of individual scientists' professional 
performance in their merit review processes, a lot of process 
kinds of things that I think the Institution needs.
    And in my discussions with leaders of the science 
organizations, many of the scientists are actually welcomed by 
the scientific community and the Institution. So I don't 
envision great difficulty in trying to implement these 
recommendations. I have the sense right now that the 
recommendations have been embraced and people are ready to move 
forward on them.
    Mr. Ehlers. Very good. In fact, I think all of them I am 
familiar with, the various science operations of the Federal 
Government, have visiting committees, outside review and some 
cases, peer review of proposals internally. So I certainly 
encourage you to do that.
    Another comment made in your internal report or review by 
the Science Commission was that you can't do as much per dollar 
because you don't have graduate students, postdocs, et cetera. 
It seems to me you could arrange that. I think there are many 
graduate students who would be delighted to conduct their 
research at one of your institutions, especially those that are 
specialized, such as the one in Panama or in other areas of the 
world. And it is a great opportunity for them, and that would 
be a great way to increase your scientific punch. In addition 
to that, a postdoctoral would be willing to do that as well, 
although they cost more than graduate students, but still 
certainly less than a full-time researcher.
    I believe there would be faculty members who would be 
delighted to spend their sabbaticals at your institution, and 
then you generally get them for half-salary because their home 
institution pays half.
    So I encourage you to pursue all those avenues. And I don't 
know if it is a policy that you simply don't accept grad 
students or postdocs. But if it is, I encourage you to pursue 
that.
    Mr. Evans. I appreciate your encouragement. I think that 
section of the report is probably not very clearly written. 
There is a fairly long tradition of having both graduate 
students and postdocs come to work at the Smithsonian. They 
come with a variety of different kinds of support.
    The Institution has traditionally had a significant program 
in fellowships that they offer for both postdoc and predoctoral 
students. Unfortunately, that is one of the areas that has been 
funded out of the general trust revenues that we have seen 
decline so seriously in the last couple of years, and it has 
really come under pressure. In an effort to deal with that and 
in response, or anticipating the Science Commission finding, 
our fiscal 2004 budget request actually has a small line in it 
that would help to begin to provide some Federal funding for 
that fellowship program. I think that is especially important, 
as we continue to raise private funds, to help support those 
fellowships.
    So recognizing the importance of fellowships, predoctoral 
fellowships, postdoctoral fellowships, the NSF-funded research 
experience for undergraduate programs, in which we also 
participate, are all ways that we have for bringing younger 
scientists into the program, and we are vigorously trying to 
round up the money to participate in those more fully.
    Mr. Ehlers. Fine.
    Last question, would your scientists like to be able to 
apply for NSF grants? I know under the current interpretation 
of the law, it is assumed they are not eligible.
    Mr. Evans. That was a recommendation, as you know, by both 
the National Academy of Public Administration and the Science 
Commission that our scientists be able to do that. And as a 
matter of fact, in the report language that accompanied both 
our portion of the appropriation for the current year and the 
NSF, the VA-HUD portion of the appropriation, the committee 
recommended in our case that the Secretary and the Director of 
the National Science Foundation get together to work on this 
issue. And in the case of the VA-HUD bill, in fact, it directed 
the Director of the National Science Foundation to make sure 
that research proposals from Smithsonian scientists were 
welcomed and put into the regular competitive process.
    And just to sort of bring you up to date of where we are in 
that process, I have a meeting Friday morning to discuss with 
Dr. Colwell--to discuss exactly how we should move ahead and 
implement that committee recommendation.
    Mr. Ehlers. That is a welcome change. And certainly any 
projects that you have with other institutions or faculty 
members with other institutions, I should think would clearly 
qualify.
    Mr. Evans. We have had some successes of those in the past, 
but we are actually very grateful to those members who helped 
with that language to provide some clarification, because 
inside the Foundation, there has been confusion with some 
programs accepting proposals and other programs not. And there 
has been a sort of inconsistency, and Dr. Colwell actually 
welcomed this language to get the clarification about how we 
can proceed in the future.
    Mr. Ehlers. Thank you.
    And thank you, Mr. Chairman. I know most of the people here 
were interested in the questions about the zoo. But since I am 
on the Science Committee and the only scientist here--the 
Science Committee, as you know, has jurisdiction over most 
institutions of the Federal Government that perform scientific 
research; you are one of the very few exceptions.
    So I felt obligated to use my expertise here to give you a 
grilling and to give you some encouragement.
    The Chairman. No doubt, Congressman Ehlers, that anybody 
was going to get out of this room without your asking a science 
question.
    The gentleman from Florida.
    Mr. Mica. Thank you, Mr. Chairman.
    Dr. Spelman, back to my personnel questions that you may be 
able to answer better than Secretary Small. Within the zoo 
operations and particularly the care for animals, are there any 
missing positions? Was there any decrease in funding, or from 
our oversight responsibility, has something gone amiss as far 
as personnel being paid for out of the Federal funds for the 
care of animals?
    Ms. Spelman. No. The Secretary is correct. We have 
continued attrition in our total staffing levels. That is 
something we have to manage each year.
    Mr. Mica. Again, specifically to the care, the veterinary 
staff now decreased and----
    Ms. Spelman. I understand your question. Within animal 
programs, which is the division of the zoo where the caretakers 
are, I have actually worked to increase the numbers of keepers; 
and now we have three new curatorial supervisory positions.
    Mr. Mica. Since when?
    Ms. Spelman. Over the last 3 years, since I have been the 
Director.
    Mr. Mica. This is the kind of stuff I want for the record.
    You talk about accreditation. And is the zoo--I mean, the 
zoo is exempt from all these other reviews, but the zoo goes 
through an accreditation process?
    Ms. Spelman. The accreditation process is something we 
willingly participate in.
    Mr. Mica. How often?
    Ms. Spelman. Once every 5 years. Current year, there are 23 
zoos going through accreditation.
    Mr. Mica. Going through it now?
    Ms. Spelman. And ours, we are midway through it.
    Mr. Mica. And you spoke to some recommendations that they 
had.
    Ms. Spelman. That's correct. It is a three-step process.
    Mr. Mica. You did this 5 years ago. If I look at the one 
from 5 years ago and we submit that as part of the record, does 
it show any deficits as far as handling of rodenticides, or 
whatever you call it, rat killer; or does it show any 
suggestions or recommendations or deficits as far as chemicals 
around animals?
    Ms. Spelman. We certainly can share with you the 5-year-ago 
report.
    Mr. Mica. Can you get a copy? I want to see if this is 
something that 5 years ago--you know we don't have a standard 
review. We have some congressional oversight. You testified 
that you will give us the documentation on that.
    You have this accreditation process. Did they identify 
deficiencies that could lead to animal deaths 5 years ago that 
haven't been remedied? That is my question. So if you could 
submit that--Mr. Chairman, unanimous consent, request unanimous 
consent that that be made part of the record or at least 
referenced to.
    The Chairman. Without objection.
    Ms. Spelman. May I offer that----
    Mr. Mica. And you don't know anything in that report that 
would specify that there were things, that were not attended 
to, that are specific to any of these deaths?
    Ms. Spelman. I think that every time an outside group comes 
in to look at our operation, that will be helpful, but there is 
nothing specific in the 5-year-ago report.
    Mr. Mica. Again, I am trying to--I just want to see if 
there has been oversight by somebody else, accreditation group, 
our group, or something that we haven't been doing and we 
should be doing.
    And the chairman has already got a good way to calm 
people's concerns about this.
    Ms. Spelman. If it would be helpful, we have a fairly 
detailed list that goes through the facts on all of the animal 
deaths that have been reported in the media. We can submit that 
as well.
    Mr. Mica. And that has already been requested. We would 
like that part of the record.
    How many animal deaths are attributable to rodent poisoning 
in the last couple of years?
    Ms. Spelman. To the best of my knowledge, only the two red 
pandas. We have not--there was a report of our prairie dogs 
being lost to rodents, but we have not substantiated that.
    Mr. Mica. I just have questions about rodent poisonings.
    I have some question about your rats, because most people 
aren't familiar with the rats in Washington. I come from 
Florida, and we have what we call citrus mice and they are rats 
about that big. Now I have also seen the--and I live a few 
blocks from the Hill and I have seen the Washington Hill rats.
    I am not talking about members of any political group or 
persuasion.
    The Chairman. Will the gentleman yield?
    Most of the rats seem to be on the other side of the 
Capitol.
    Mr. Mica. I have seen rats in Washington as big as cats. I 
mean, they are absolutely frightening. I am also told that 
these rats can savage some of the animals. And you said that we 
are not going to have any rodenticide, or rodent poison, close 
to the animals, but you still have a problem because you have 
animals, you have feed, you have open conditions, so that does 
pose a problem.
    But I don't know if the members know this, but the Hill is 
infested with rats, and the offices are infested with rats or 
some of our locations have been. And there is--we had a hearing 
a few years ago with Mike Synar, and we had some carpeting that 
was in question. People were afraid that toxic fumes from 
carpeting were affecting humans. And they put a couple of 
biology mice in a container with some carpeting that was going 
to be used on the House floor. And you know the mouse keeled 
over dead.
    But it wasn't the fumes in the carpeting. I got a copy of 
the report and it was the rodenticide--whatever you call it; 
again, I am sure I am slaughtering the name--but the rodent 
poison we spray all through here. And that can have an effect 
on human beings and animals. It is very difficult to control.
    So, again, you have to balance, I think, the protection of 
the animals with a complete infestation.
    Would that be the case also?
    Ms. Spelman. That is true. There are three things we are 
stepping up. One, we already mentioned our older facilities. 
Any old building, in and around an older building, that is a 
great site for rodents to live; and so as we are renovating old 
facilities, at least we are also dealing with harborage areas 
where rodents live.
    Mr. Mica. Final question about rats.
    Ms. Spelman. The second thing is, if you come and see the 
animals at feeding time, you will see many animals are fed in a 
way where the rodents cannot get at their food stuff. Giant 
pandas, for instance, are fed with a piece of PVC tubing with a 
hole in it, and they shake it and a biscuit falls out and they 
eat that biscuit. Because the rodents learn exactly the 
routines of the keepers and when the food will be put out. So 
we are trying to outsmart our rodent population and use as few 
chemicals as possible.
    Mr. Mica. Two things. Sometimes we talk about rats, and 
sometimes there are people want to rat on other people. This 
isn't a personnel matter that is blown out of proportion within 
the zoo, is it? Is someone trying to come after your for some 
personal reason?
    Ms. Spelman. I believe the National Zoo needs many changes, 
and we are starting to make those changes.
    Mr. Mica. This isn't a personnel matter--you can tell us. 
There are different kinds of rats around, and I want to get to 
the bottom of it.
    Ms. Spelman. We have many policies and procedures we need 
to improve, and we are on the road to doing that. And yet I 
believe that we need to renew the zoo in every way.
    Mr. Mica. I can't imagine somebody who has your 
professional qualifications and is probably as dedicated as you 
are to animals and wildlife--I am sure this is no fun for you 
personally, because I know you must have some care and love for 
these creatures.
    And I apologize, but what I try to do is just get the facts 
and lay them out and let people make the judgments.
    The Chairman. Any final questions?
    Mr. Larson. Just again by way of follow-up of--with the 
question that Juanita Millender-McDonald asked; and I hope this 
is something we can work on with the Academy as we go forward. 
I think it is in everyone's best interest to make sure that we 
continue down the path that you have outlined so that we have 
the very best practices. And I couldn't agree with you more 
that the more input that we get from independent outside 
sources can only help.
    Juanita asked for a compilation of what happened. I would 
only add that I think we should look at it not only in the 
context of the National Zoo, but other zoos so we can have some 
comparative data, I think, along the lines that you have 
indicated and outlined in terms of both those that might happen 
through human error and--I forget exactly how you described----
    Ms. Spelman. Differences in professional opinion.
    Mr. Larson. And I think it is especially important for lay 
Members of Congress who sit on committees like this that 
scientific professionals get an opportunity to focus on this 
and the come back to us with the--with their analysis and their 
information, which I hope would allow us to understand the 
situation better and take whatever corrective action might be 
necessary.
    And that is the only other question I have, Mr. Chairman.
    The Chairman. I thank the ranking member.
    And with that, I want to again thank Secretary Small, as 
well as Under Secretary Evans and Director Spelman, who worked 
hard to prepare for the hearing today and her ongoing work with 
the Smithsonian Institution. And I also want to thank our 
ranking member for his thoughtfulness and work on what I think 
we have come up with, which is the oversight ability through 
the National Science Foundation, and also the overall input on 
this total comprehensive look at the Smithsonian Institution 
and the needs that they have.
    I thank all the members that participated in the hearing 
today.
    Members do have additional questions; they can submit them 
in writing. And I would expect the witnesses would return the 
answers in writing.
    The Chairman. I also ask unanimous consent that members and 
witnesses have 7 legislative days to submit material into the 
record for those statements and materials to be entered into 
the appropriate place in the record. Without objection, the 
material will be so entered.
    I also ask unanimous consent the staff be authorized to 
make technical and conforming changes on all matters considered 
by the committee in today's hearing. Without objection, so 
ordered.
    I also would like to thank Congressman Eleanor Holmes 
Norton, who I know has communicated with our ranking member, 
and for her continued concern and thoughtfulness on this issue.
    Having completed our business for today, the oversight 
hearing committee is hereby adjourned. Thank you.
    [Whereupon, at 4 p.m., the committee was adjourned.]

                                <greek-d>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
